         Review of the Railroad Retirement Board’s Acquisition Process –

                              Contracts for Services 

                        Report No. 04-01, October 16, 2003


                                  INTRODUCTION 


This report presents the results of the Office of Inspector General’s (OIG) review of the
Railroad Retirement Board’s (RRB) acquisition process of contracts for services.

Background

The RRB’s mission is to administer retirement/survivor and unemployment/sickness
insurance benefit programs for railroad workers and their families. During fiscal year
(FY) 2002, the RRB paid approximately $8.7 billion in railroad retirement and survivor
benefits to about 684,000 beneficiaries. The RRB also paid unemployment and
sickness insurance benefits of $105.8 million to some 41,000 claimants.

The RRB utilizes contracts for numerous goods and services that it cannot perform in-
house or that the outside vendors can perform more effectively and efficiently. During
FY 2001 and 2002, the RRB made procurements totaling approximately $12.3 million
and $9.4 million, respectively. Some agency contracts involve the direct engagement of
the time and effort of a contractor whose primary purpose is to perform an identifiable
task rather than to furnish a product or good. Some of the areas in which contracts for
services are currently used by the RRB or have been used in the past are:

   •	 Maintenance, overhaul, repair, servicing, rehabilitation, salvage, modernization,
      or modification of supplies, systems, or equipment;
   • Routine maintenance of real property;
   • Housekeeping services;
   • Advisory and assistance services;
   • Operation of Government-owned equipment facilities and systems;
   • Communications services; and
   • Information systems services.

The Federal Acquisition Regulations (FAR) codify uniform policies for acquisition of
supplies and services by executive agencies. RRB officials used the Federal Supply
Schedule (FSS) program to increase the efficiency of agency procurements. This
program provides Federal agencies with a simplified process for obtaining commonly
used products and services at prices associated with volume buying. The General
Services Administration (GSA) manages this program and awards contracts to multiple
companies supplying comparable products and services. Any Federal agency can then
place orders with these FSS contractors.

Part 8 of the FAR governs the use of the FSS program. FAR 8.402 allows GSA to
establish special ordering procedures for individual Federal Supply Schedules. In
March 1998, GSA developed special instructions for ordering services priced at hourly
rates. These instructions were updated in March 2000 to become “Ordering Procedures
for Services.” Federal agencies are directed to use the procedures when ordering
services from a FSS contractor.

The RRB’s Basic Board Order #5 states that the execution and administration of
contracts shall be centralized in the Bureau of Supply and Service (BSS). As the
agency’s contracting officer, the Director of Supply and Service oversees the
development, approval, monitoring and administration of all agency contracts. RRB
user organizations should alert the contracting officer of the need for procurement
action as soon as the need is recognized. Early communication facilitates better
contract planning and enables more timely, efficient and economical procurements.

The RRB’s 2000-2005 strategic plan’s second goal of safeguarding customer trust
funds through prudent stewardship is relevant to this review. One goal objective is to
use outside sources and partnerships, when appropriate, to accomplish the agency’s
mission. A second objective is to ensure the RRB consistently pays the lowest price for
products and services commensurate with quality, service, delivery and value.

Objective, Scope and Methodology

The objective of this review was to assess the agency’s compliance with applicable
Federal regulations as well as internal agency policies and procedures for procurement.
The scope of this review included contracts during FY 2001 through 2003.

To accomplish our objective, we:

    • reviewed applicable Federal regulations,
    • examined agency policies and procedures,
    •	 performed a preliminary review of a judgmental sample of five contracts for
       services,
    •	 after this preliminary review, focused a detailed review on three information
       technology contractors with multiple orders, and reviewed all procurement
       documents for these vendors in files supplied by BSS, and
    • interviewed responsible management and staff.

This audit was conducted in accordance with generally accepted government auditing
standards as applicable to the objective. Fieldwork was conducted at the RRB
headquarters in Chicago, Illinois from November 2002 through April 2003, and July
through September 2003.
                                RESULTS OF REVIEW 


Our review determined that the RRB did not always comply with Federal regulations
and/or agency policies and procedures for FSS procurements. For the information
technology services that we reviewed, RRB officials did not always seek competitive
quotes, provide statements of work (SOW) to vendors, and/or adequately review price
and proposal details prior to making a contract decision.

Detailed findings and recommendations are discussed below.

Federal Regulations and Agency Policies Not Followed for FSS Procurements

RRB contracting officials did not follow several of the GSA’s established regulations and
procedures when purchasing information technology services using the FSS program.
Our review identified five specific deficiencies. More information concerning specific
orders cited in this report appear in Appendix I.

1. Placement of orders without seeking competitive quotes from multiple contractors

   In five orders ($416,000) for services that required a SOW, agency officials did not
   seek competitive quotes by providing a request for quotation (RFQ) to at least three
   FSS contractors. In several orders, there was no evidence that the agency prepared
   and submitted the required request and statement to vendors. In other orders, there
   was insufficient documentation in the contract file to show that the agency complied
   with Federal policies to obtain competitive quotes.

   For orders exceeding the $2,500 micro-purchase threshold and requiring a SOW,
   the GSA special ordering procedures for services require a purchasing office to
   prepare a RFQ and transmit it to at least three FSS contractors. The purchaser
   must then evaluate responses against the factors identified and place the order with
   the contractor that represents the best value.

2. 	 Improperly entering into Blanket Purchase Agreements (BPA) without soliciting
     adequate competition

   Contract officials could not demonstrate that they either solicited competitive quotes,
   reviewed contractor price lists/catalogs, or used the GSA on-line shopping service
   before entering into two BPAs with FSS contractors.

   A BPA is a simplified method of filling anticipated repetitive needs for services and
   supplies. A purchasing office must first follow the GSA special ordering procedures
   or FAR 8.404. The office should either solicit quotes from at least three vendors,
   compare prices based on catalogs/price lists or use GSA’s online shopping service
   prior to establishing the agreement for purchases exceeding $2,500. Once the BPA
   has been established, the office can place orders with the chosen contractor without
   further best value selections.
3. Failure to provide adequate SOW

   Nine of the 17 information technology orders reviewed by the OIG required a SOW.
   RRB personnel did not prepare an adequate SOW in seven orders. In five of the
   seven orders, staff in the agency’s Bureau of Information Services (BIS) performed
   the initial contact to contractors to discuss potential information technology projects.
   BIS did not document the initial contact with the vendor or the requirements
   addressed by the proposal in the agency contract files.

   GSA special ordering procedures require that the RFQ include a SOW that outlines
   the work to be performed, location of work, period of work, deliverable schedule,
   applicable standards, acceptance criteria, and any special requirements. The RFQ
   also may request contractors to submit a project plan for performing the task and
   information on the contractor’s experience performing similar tasks. It should also
   notify contractors what basis will be used for awarding the contract.

4. 	 Inadequate review of contractor price lists and catalogs, and/or use of the GSA
     online shopping service

   The OIG reviewed one order where contract officials should have reviewed price
   lists/catalogs for three contractors or used the GSA online shopping service prior to
   making a best value determination. Contract officials could not demonstrate that
   they had performed this review.

   The GSA special ordering procedures require contracting officials to use the online
   shopping service or review price lists from at least three FSS contractors for orders
   that do not need a SOW and exceed $2,500.

5. Inadequate review of labor hours, mixes, and rates

   In one order, contract officials compared labor rates contained on the FSS for two
   contractors. However, they did not consider labor hours or the mix of labor
   categories needed.

   GSA determines that the rates for services contained in the FSS contractor’s price
   list are fair and reasonable. However, purchasers are still responsible for (1)
   considering the level of effort and mix of labor proposed to perform a specific task
   being ordered, and (2) making a determination that the total firm-fixed price or ceiling
   price is fair and reasonable.

The five deficiencies listed above occurred because RRB contract officials incorrectly
believed that GSA had made all required competition and price reasonableness
determinations when they approved contractors for inclusion on the FSS. Therefore,
they improperly decided that no additional price reasonableness or best value
determinations were required when issuing FSS orders. Officials relied on FAR
8.404(a) for guidelines without realizing that this part of the FAR is supplemented by the
GSA special ordering procedures.

The agency did not have sufficient documented procedures that summarized the
processes and requirements for requesting and completing the procurement of goods
and services. The agency’s Administrative Circular BSS-14, Procurement of Goods and
Services, did not adequately address FAR regulations governing the procurement of
goods and services from FSS and did not provide any information on the GSA special
ordering procedures.

In addition, BIS personnel were overly involved in initial procurement actions for
information technology services. This bureau plays a key role in directing and leading
the strategic management of the RRB's information technology resources. However,
instead of working through the BSS procurement division, BIS personnel frequently
solicited initial proposals from potential contractors, and discussed pricing and other
procurement issues directly with potential contractors prior to involving the BSS
procurement division. In a few instances, BIS did not involve the procurement division
early enough in the process to allow procurement staff to adequately administer and
control these activities. Therefore, BSS was unable to exercise sufficient oversight over
some orders.

These weaknesses were partially caused by ambiguous guidance for issuing FSS
orders in FAR Part 8. The GSA special ordering procedures are not mentioned in FAR
Part 8 even though they take precedence over procedures in this section. The GSA
special ordering procedures themselves do not specify the types of services for which a
SOW is required.

The U.S. General Accounting Office and Inspectors General of other Federal agencies
have identified similar issues with the GSA special ordering procedures and the use of
FSS throughout the government. As a result of a General Accounting Office Report1,
the FAR Council and other procurement groups are pursuing amendments to FAR 8.4.
During the course of our review, proposed amendments to the FAR were published for
Federal agency comment.

Agency managers informed the OIG that they have taken some actions during this
review to address identified issues. The agency’s Senior Executive Officer issued a
memorandum in May 2003 relating to procurement activities. In June 2003, the agency
also issued a revised Administrative Circular BSS-14.

While both agency actions are a positive step to ensure compliance, we do not believe
that they are adequate. The May 2003 memorandum indicated that all procurement
actions must be handled or cleared through the Director of Supply and Service or
his/her designee including contacts with contractors. The memorandum stated that
bureau and office heads “advise your employees that they must contact the

1
 Report No. GAO-01-125 , “Contract Management: Not Following Procedures Undermines Best Pricing
Under GSA’s Schedules,” November 28, 2000
Procurement Section in the Bureau of Supply and Service before they embark upon any
action that might culminate in a procurement action.” However, the OIG noted at least
one instance subsequent to this memorandum where BIS personnel did not comply.

The revised Administrative Circular BSS-14 is inadequate because it still does not
address FAR regulations governing the procurement of goods and services from FSS.
The Circular also does not provide any information on the GSA special ordering
procedures.

Inconsistent compliance with applicable regulations and policies has resulted in the lack
of adequate competition for orders covered under the FSS. Without multiple quotes
from vendors, the RRB contract officials do not have a good basis for deciding which
contractor is the most competitive. Because the RRB has not always determined
whether the total firm-fixed price or ceiling price for FSS orders were reasonable, the
agency has no assurance that it paid fair and reasonable prices or obtained best value
for services.

In addition, the RRB has exposed itself to potential legal liability and appeals of contract
awards. Other FSS contractors may appeal contract awards and attempt to obtain legal
relief, which could result in substantial costs to the RRB.

Recommendations:

The OIG recommends that the Bureau of Supply and Service:

   1. 	 Revise Administrative Circular BSS-14 to address FAR sections relating to the
        procurement of goods and services from FSS contractors. The revisions should
        include information on the GSA “Ordering Procedures for Services” contained in
        GSA’s Multiple Award Schedules Program Owner’s Manual. BSS should also
        explain what information needs to be included in a statement of work.

   2. 	 Provide training for and directives to procurement personnel on the use of
        Federal Supply Schedules and the GSA special ordering procedures.

   3. 	 Provide a directive to the Bureau of Information Services that emphasizes the
        need to contact the Procurement Section of the BSS before initiating any action
        that might result in a procurement.

Management’s Response

Management concurs with the first two recommendations to the Bureau of Supply and
Service. Management will revise Administrative Circular BSS-14 by December 31,
2003 and also provide training to procurement staff by that date. Management
disagrees with the third recommendation, advising that they believe that the agency’s
Senior Executive Officer’s memorandum in May 2003 relating to procurement activities
sufficiently addressed the identified weakness.
Management agreed that the agency did not solicit three vendors for competitive quotes
in every case where a statement of work was required. However, they indicated that
GSA guidance clearly states that ordering offices should not overburden contractors
with requests for quotes, and that such requests should be tailored to the minimum level
necessary.

A complete copy of the response is included in Appendix II.

OIG Comments

The OIG disagrees with management concerning the recommendation to provide a
directive to BIS because the identified instance occurred a few weeks after the May
2003 memorandum was issued. Therefore, we believe that a reminder memorandum
issued directly to BIS from the Bureau of Supply and Service would more effectively
address the non-compliance of BIS staff.

The OIG agrees with management’s comment that the agency should strive to minimize
contractors’ costs associated with responding to requests for quotes for specific orders
and that quotes should be tailored to the minimum level necessary for adequate
evaluation and selection for order placement. The OIG sees no conflict between this
guidance and requirements to seek competitive quotes, and believes that the agency
can easily comply with both the guidance and requirement.
                                                                            Appendix I

         INFORMATION ON SELECTED ORDERS REVIEWED BY THE OIG

     Order Description                          OIG Notes/Comments

                               Report deficiencies 1, 3 and 5 – Award made based on
                               the agency’s Executive Committee’s overall selection of a
                               contractor.    The agency’s Chief Enterprise Architect
                               provided a recommendation to the Executive Committee.
                               Several      FSS     contractors    made     informational
                               presentations to the Committee. These presentations
                               included overviews of enterprise architecture planning as
                               well as brief overviews of the presenting contractors’
Consulting Services in         approach to the enterprise architecture process. However
Support of RRB’s Enterprise    these presentations were not proposals, were not
Architecture Platform -        sufficiently documented, and were not made in response
$94,442                        to any RFQ. Also, the contractors were not provided with
                               a SOW which explained the RRB’s requirements and
                               expected deliverables.      Several months after these
                               presentations, the selected vendor submitted a formal
                               proposal. Although the RRB compared labor rates with
                               another vendor, no comparison of labor hours or the mix
                               of labor categories needed was performed.


Blanket Purchase Agreement     Report deficiency 2 – The RRB did not solicit competition
for Consulting Services        prior to entering into this BPA because of the Executive
Focused on the Agency’s        Committee’s overall decision to use a particular vendor for
Enterprise Architecture –      enterprise architecture consulting work. The committee’s
Orders totaled approximately   decision was based in large part on the previously
$230,000                       described informational presentations.         There is no
                               evidence that the agency made a best value
                               determination prior to entering into this agreement.


                               Report deficiencies 1 and 3 – A single vendor submitted a
Help Desk Benchmarking         proposal. There is no evidence that the RRB provided a
Study - $43,980                SOW or RFQ to any contractor.


Architecture Development       Report deficiency 1 – There is no evidence that agency
Service, Enterprise            officials provided a SOW to any vendor other than the
Architecture Strategies -      contractor awarded the order. Also, there is no evidence
$29,469                        that the RRB prepared an RFQ or provided an RFQ to
                               any FSS contractors.
                               Report deficiencies 1 and 3 – Several contractors
                               submitted proposals; however, there is no record of any
                               RFQ or SOW in the contract file. In addition, the
Internet-Based Employer        contractors were not all afforded the opportunity to submit
Reporting Pilot Project -      proposals based on the same requirements. The selected
$193,770                       vendor’s final proposal was based on substantially
                               different requirements than the proposals submitted by
                               the competing contractors. Only the selected contractor
                               received these requirements. Therefore, the quotes
                               were not competitive.


                               Report deficiencies 1 and 3 – The RFQ was provided to a
Additional Tasks Needed to     single contractor. It was considered to be a supplement
Move Internet-Based            to a prior order and the agency deemed the contractor as
Employer Reporting Pilot to    the only one capable of meeting the order requirements.
Employer Testing and           The RFQ contains a requirements document but it is not
Implementation - $54,000       an adequate SOW as it contains no information on the
                               deliverable schedule, applicable standards or acceptance
                               criteria.


Help Desk Improvements -       Report deficiency 3 – RRB officials did not prepare an
$19,400                        adequate SOW for this order. The vendor’s final proposal
                               deliverables were incorporated as the order requirements.


                               Report deficiency 3 – The RRB did not prepare an
Data Center Benchmark          adequate SOW for this order. Instead, the vendor
(Evaluation of the Mainframe   submitted an initial proposal to the RRB, and then
Operating Environment) -       submitted a final proposal to address issues raised by
$38,343                        RRB officials. The final proposal deliverables were
                               incorporated as the order requirements.


                               Report deficiency 3 – The RRB did not prepare an
Consulting on Help Desk        adequate SOW for this order. The contractor submitted
Implementation - $11,928       an initial proposal and then sent an additional proposal to
                               address RRB concerns. The deliverables in the final
                               proposal were incorporated as the order requirements.
                                       Report deficiency 2 – RRB officials advised that they
                                       solicited only one FSS contractor because the vendor was
Blanket Purchase Agreement             a certified 8(a)2 and woman-owned small business that
For Information Technology             was locally located. However, this fact does not negate
Support Service Personnel –            the need to comply with the competition provisions of FAR
Orders totaled approximately           and GSA’s Ordering Procedures for Services. The RRB
$234,000                               should give preference to certified 8(a) small businesses
                                       when two or more contractors can meet requirements at
                                       the same price. In this case, the RRB did not obtain price
                                       information for any other vendors.


                                       Report deficiency 4 – RRB officials placed the order
Executive Directions Service           directly with the vendor without making any comparisons
(Advisory Services for Chief           to other contractors’ FSS catalogs or price lists. RRB
Information Officer) - $21,464         officials also could not demonstrate that they used the
                                       GSA online shopping service.




2
   A certified 8(a) firm is owned and operated by socially and economically disadvantaged individuals and
eligible to receive federal contracts under the Small Business Administration’s 8(a) Business
Development Program.
